In THE
Supreme Court of the United States

No.

CUSTOMEDIA TECHNOLOGIES, LLC,
Petitioner,
ve
DISH NETWORK CORPORATION;
DISH NETWORK, LLC,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

Pursuant to this Court’s Rule 33.1(h), I hereby certify that the Petition for a Writ
of Certiorari contains 8916 words, excluding parts of the document that are exempt
by Rule 33.1(d).

 

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 31, 2020.

    

aymond W. Mort, III
THE Mort LAw Firm, PLLC
100 Congress Ave, Suite 2000
Austin, Texas 78701
512-865-7950
raymort@austinlaw.com

Counsel for Petitioner
